>

ei

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT OF FLORIDA

TAURICE BROWN,
Appellant,
v.

CASE NO. 1D13-147

STATE OF FLORIDA,
Appellee.

ON APPEAL FROM THE CIRCUIT COURT
OF THE FOURTH JUDICIAL CIRCUIT,
IN AND FOR DUVAL COUNTY, FLORIDA

INITIAL BRIEF OF APPELLANT

NANCY A. DANIELS
PUBLIC DEFENDER
SECOND JUDICIAL CIRCUIT
ROBERT S. FRIEDMAN
ASSISTANT PUBLIC DEFENDER
FLORIDA BAR NUMBER 0500674
LEON COUNTY COURTHOUSE
SUITE 401
301 SOUTH MONROE STREET
TALLAHASSEE, FLORIDA 32301
(850) 606-8500
Robert.friedman@flpd2.com
ATTORNEY FOR APPELLANT

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT OF FLORIDA
TAURICE BROWN,
Appellant,
CASE NO. 1D13-147

v.
STATE OF FLORIDA,
Appellee.

INITIAL BRIEF OF APPELLANT
PRELIMINARY STATEMENT
Appellant was the defendant and appellee was the prosecution
in the Criminal Division of the Circuit Court, of the Fourth
Judicial Circuit, in and for Duval County, Florida.
In the brief

the parties will be referred to as they appear

before this Court.
References to the record on appeal shall be by the letter
"R" followed by the page number,

References to the trial

transcript shall'be by letter "T" followed by the page number.

-1-

STATEMENT OF THE CASE
Appellant, Taurice Brown, was indicted by a grand jury with
first-degree murder in Count I and attempted first-degree murder
in Count II.

(R 33-35).

The case proceeded to a jury trial.

Without objection, the

trial court instructed the jury on the law of principals.

(T

1138-1139) .
The jury returned verdicts of guilty as charged in the
indictment.

(R 594-598) .

Appellant was adjudicated guilty and

sentenced to life in prison.

(R 1039-1047).

A notice of appeal was timely filed.
follows.

■J

-2-

(R 1077). This appeal

bleeding.

Plank was advised that she had a gunshot wound to the
(T 304-307) .

left side of her head.

Vincent Mariano testified that he had been living in the
Duval County Jail for the past 19.5 months,
he was living at 6048 Transylvania Avenue,
using crack cocaine,

On October 22, 2010,
At the time, he was

Mariano testified that he knows "Josh" as

he bought cocaine from him prior to October 22, 2010, four or
five times.

An in-court identification of appellant as the

person that he knows as "Josh" was made by Mariano,
learned that appellant's name was Taurice Brown.

He later

Mariano had

appellant's cell phone number programmed into his cell phone.
Mariano also bought cocaine from "Yo" in October 2010.
also known as Anthony Wiggins.
into his cell phone as well.
appellant to buy cocaine.
to sell him cocaine.

"Yo" is

Wiggins' number was programmed
On October 22, 2010, Mariano called

Appellant agreed to come to the house

Mariano then called someone else because

appellant was taking too long.
be there in five minutes.

He called "Yo."

He said he would

Mariano then called appellant back so

there would not be a confrontation.

He told appellant that there

was no need for him to come over because the guy who was supposed
to buy the cocaine had left,

Appellant said he was around the

corner and would be there in a minute.
this was a lie.
agitated.

According to Mariano,

The guy was still there.

Appellant was

"Yo" pulled in the yard, Mariano got the cocaine, and

then "Yo" backed out.
Dodge Charger.

"Yo" was driving a silver or charcoal

Appellant pulled up and he and "Yo" started
-4-

Mariano also testified that he had eight pending cases. He
has three prior felony convictions; two of which are for crimes
of dishonesty.

Mariano agreed to testify truthfully in this case

but has not been told the State how much time he's going to get
on his pending cases.
~7

(T 361-362).

Anthony Wiggins testified that he is currently in the Duval

County Jail.

He has been involved in selling crack cocaine.

Wiggins knows Vincent Mariano as he has sold crack cocaine to
him.

They had each other's cell phone numbers.

2010, Mariano contacted him to buy drugs.

On October 22

He went to Mariano's

house at 6048 Transylvania Avenue in his Dodge Charger,

Mariano

approached his vehicle on the driver's side, gave him the money,
and Wiggins gave him crack cocaine.

Another vehicle pulled up.

A person exited the vehicle from the driver's side,

The person

had brown skin, was heavy-set, kind of tall, and had dreads.

The

facial demeanor of. the person was full of anger for taking in the
transaction with Mariano.
problem.
business."
gunshots.

Wiggins asked him what was his

Mariano said to Wiggins, "go ahead on about your
Wiggins was getting ready to pull off and he heard
He retrieved his firearm and attempted to shoot back.

He shot once.

There were two or three shots before he shot.

He

heard a bullet ricochet off his car on the back panel. . The
reason he shot once was because his gun jammed.

He sped down the

street and saw the same man in the middle of the street shooting
towards Blanding.
appellant.

An in-court identification was made of

(T 414-424,426-427).
*5#

-6-

he heard some loud noises that sounded like firecrackers or M80s.

He looked down Transylvania and saw a car at high speed

coming towards Blanding.
past his ear.

He ran inside.

some type of Chrysler.
_

Bohannon also heard some bullets go
The car was silver, four-door;

(T 470-473).

Officer Betty Pearson, of the Jacksonville Sheriff's Office,

testified that she responded to the shooting on Transylvania
Avenue on October 22, 2010, at 7:59 a.m.

As she was driving down

Blanding, she saw Fire/Rescue and police at the scene of the
crash at the intersection.

She assisted in canvassing the area.

Pearson also documented bullet strikes on houses on Transylvania
Avenue on the left side of the street coming from Blanding.

(T

484-487, 488) .
Eric Jones testified that on October 22, 2010, he was living
at 6055 Transylvania Avenue.
walked to his car.

At 7:45 a.m., he walked outside and

He heard several gunshots to his right in the

direction of Blanding.

This was from four to five houses down.

He could not make out who was shooting.
car driving towards Wesconnett.

Jones also observed a

It was grey or silver.

(T 492-

496) .
April Williams testified that she was visiting her mother at
6054 Transylvania Avenue on October 22, 2010.

After dropping her

daughter off at school, she was with her mom who was in the back
seat of the car on their way back to her mother's house,

As she

pulled onto Transylvania Avenue, she heard what sounded like
firecrackers.

A car zoomed past them and she saw somebody in the
-8-

into the back of his dryer.
but did not.

The bullet tried to come out front

.Blakeney also testified that he assisted the police

in taking the dryer apart.

(T 553-556) .

Marie Greenman testified that on October 22, .2010, she was
living at 6123 Transylvania Avenue.

She had already left for

work that morning and went back to her home between 4:30 and 4:45
p.m.

According to Greenman, a bullet came in through the master

bedroom from the outside of her house. It skidded off the roof
and got lodged in the center wall of the house.

(T 560-561).

Kimberly Long, with the Crime Scene Unit of the Jacksonville
Sheriff's Office, testified that on October 22, 2010, she went to
three different crime scene areas; the intersection of Blanding
Boulevard and 103rd Street, the intersection of Blanding and
Transylvania Avenue, and Transylvania Avenue itself.
567) .

(T 566-

In addition to shell casings, an unknown projectile was

recovered from the laundry room at 6111 Transylvania Avenue and
an unknown projectile was recovered from the dryer at 6117
Transylvania Avenue.

(T 643-644).

William Whittelsey, of the Jacksonville Sheriff's Office
Crime Scene Unit, testified that on October 25, 2010, he went to
3200 Hartley Drive and examined a Dodge Charger.

There was a

broken piece of tail lamp and a pistol found underneath the seat
of the vehicle.

(T 676-677) .

There were six projectiles in the

magazine inside the gun with one in the chamber.
Ruger PD5DC .9 millimeter.

(T 679-681).

-10-

The gun was a

!■

Richard Kocik, a latent print examiner with the Jacksonville
Sheriff's Office, testified that he examined a lift card from the
passenger door handle of a blue LeSabre which was of no value.
<T 745-749) .
James Pollock, a Senior Crime Lab Analyst in the Biology/DNA
Section of the Florida Department of Law Enforcement, testified
that he examined swabs from casings he received in evidence in
this case and got nothing.

(T 754,765-766,768).

Patrick Bodine, a detective with the Jacksonville Sheriff's
Office, testified that he was the lead detective in this case.
Bodine went to the scene of the shooting on Transylvania Avenue
and Blanding Boulevard.

On October 22, 2010, he recorded

telephone calls made using Vincent Mariano's phone.
There was a call made to appellant.

<T 782-784).

Three firearms were

recovered from Michael Harper's house in this case that were sent
to FDLE which were determined were not used.

Bodine testified

that he went to the medical examiner's office where a bullet was
recovered from the victim's head.
fragments.'

These were projectile

Appellant was arreste(d on October 26, 2010 at his

home located at 3302 Phyllis Street.
at the house.

There was a Buick LeSabre

A Wal-Mart receipt was recovered from the car.

A

video was obtained from Wal-Mart from October 22nd between 5:30
and 5:35 a.m.

Appellant and Maurice Henderson were in the video.

There was a call made by appellant from the jail on October 28,
2010.

(T 784-786,790-793).

The call was played for the jury:

-12-

At 7:59 a.m., there was an incoming call from Mariano to W-iggins.
At 7:59 a.m., there was an outgoing call to Mariano and an
outgoing call at 8:00 and 8:01 a.m.

Bodine testified that

appellant's phone was in the area of the homicide minutes before
the homicide.

The phone calls also showed prior contact between

Mariano and appellant prior to the homicide and also established
contact between appellant and Mariano after the homicide.

(T

823-824) .
Thomas Pulley, a Firearm Examiner with the Florida
Department of Law Enforcement, testified that he examined 17
casingsTbuiret fragments, anda"Huger pistoT~in~this case.

He

also examined a .38 Smith & Wesson, a .9 millimeter Glock, and a
45 caliber Taurus.

He eliminated these three firearms as not

having fired the casings from this case,

According to Pulley,

the Ruger which was found in Wiggins' car, and was one of the 17
.9 millimeter cartridge cases he was able to identify to the
Ruger pistol.

Of the remaining 16, 14 were fired from one gun

and the remaining two were fired from a separate firearm.

The

ammunition was the same caliber but came from different guns.
The bullet fragment that was recovered from the victim's head was
not fired from the Ruger pistol.
were fired from a Glock.

In Pulley's opinion, 14 casings

Bullet fragments recovered from the

deceased's head were consistent with a Glock and not a Ruger.

(T

845-846, 853-855,864-865,878-879).
Valerie Rao, a forensic pathologist, testified that she did
an autopsy on Analiza Gobaton on October 25, 2010.
-14-

In Rao's

also damage to Vincent Mariano's tree.

This was next door.

Anderson also testified that he went back out to the area the day
before testifying.
Mariano's house.

There was no damage to the house next to
There were two trees in Mariano's yard that had

multiple strikes.

The strike was on the west side of the tree.

This means the person would be shooting from the Blanding area.
Ms. Williams' tree had a strike on the west side but most of them
were on the east side.

Williams' tree had one strike on the west

side.

Next door, at 6048, there were two strikes on the west

side.

(T 945-950,952-954) .
Charles Fowler testified that he used to live at 6145

Transylvania Avenue.
occurred.

He was on his front porch when the shooting

A Dodge station wagon with tinted windows was coming

up Transylvania towards Blanding.

Mr. Fowler has been convicted of a

the trees and returned fire.
felony three times.

He heard shots coming through

(T 982-983,986-991).

On cross-examination, Fowler testified he did not see
anybody shooting out of the Dodge,
was the one being shot at.

The car coming towards him

(T 996,998).

On redirect, examination, Fowler testified that he heard
firing from the ear because it was coming towards him.
the sound of a gun.

(T 998).

-16-

It was

ARGUMENT
ISSUE
IT WAS FUNDAMENTAL ERROR TO INSTRUCT THE JURY ON THE
LAW OF PRINCIPALS.
The standard of review is de novo as this is purely a legal
question.
Without objection, the trial court instructed the jury on
the law of principals.
Statutes.

(T 1138-1139).

See, §777.011, Florida

This was fundamental error.

The Sixth and Fourteenth Amendments to the United States
Constitution require that a charging document in a criminal case
state the elements of the offense charged with sufficient clarity
Russell

to apprise the defendant of what he must defend against.
v. United States, 369 U.S. 749 (1962).

Article I, Section 16 of

the Florida Constitution contains a similar safeguard.

Due

process also requires such definiteness to prevent the jury from
being instructed on an uncharged theory.

See. Tarolev v.

Estelle, 703 F. 2d 157 (5th Cir. 1983).
In the instant case, nowhere in the indictment filed against
appellant does it state that appellant was a principal.

(R 33-

Appellant was not informed in the charging document that

35) .

the State was proceeding under §777.011, Florida Statutes.

In

Rose v. State, 507 So. 2d 630 (Fla. 5th DCA 1987), the court said
It is elementary that the conviction of a crime not
charged violates constitutional due process as well as
the constitutional right of the accused in all criminal
cases to be informed of the nature and cause of the
■a.c.cu.sa_tion against him. The violation of such
, V

-18-

/

CONCLUSION
Based on the foregoing arguments and authorities cited
therein, appellant requests this Court to reverse and remand this
cause with appropriate directions.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the
foregoing was furnished by electronic transmission to TRISHA
MEGGS PATE, Assistant Attorney General, Counsel for the State, at
crimapptlh@myfloridalegal.com; and by U.S. Mail to TAURICE BROWN,
#J48890, Santa Rosa Correctional Institution Annex, 5850 East
Milton Road, Milton, FL 32583, on this date, October 3, 2013.
CERTIFICATE OF FONT SIZE
I HEREBY CERTIFY that pursuant to Rule 9.210(a)(2), Fla. R.
App. P., this brief was typed in Courier New 12 point.
Respectfully submitted,
NANCY DANIELS
Public Defender
Second Judicial Circuit

ROBERT S. FRIEDMAN
Assistant Public Defender
Florida Bar No. 0500674
Appellate Counsel for Appellant
301 South Monroe Street, Suite 401
Leon County Courthouse
Tallahassee, FL 32301
Robert.friedman@flpd2.com
(850) 606-8500

-20-

/

/

x

E-Copy Received Nov 13/ 2013 4:14 PM

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT OF FLORIDA

TAURICE BROWN,
Appellant,
v.

Case No. 1D13-147

STATE OF FLORIDA,
Appellee.

ON APPEAL FROM THE CIRCUIT COURT
OF THE FOURTH JUDICIAL CIRCUIT
IN AND FOR DUVAL COUNTY, FLORIDA

ANSWER BRIEF OF APPELLEE
PAMELA JO BONDI
ATTORNEY GENERAL
WESLEY PAXSON III
ASSISTANT ATTORNEY GENERAL
Florida Bar No. 66487
OFFICE OF THE ATTORNEY GENERAL
PL-01, THE CAPITOL
TALLAHASSEE, FL 32399-1050
(850) 414-3300
(850) 922-6674 (FAX)
COUNSEL FOR APPELLEE

TABLE OF CONTENTS
PAGE#
TABLE OF CONTENTS

1

TABLE OF'CITATIONS

2

PRELIMINARY STATEMENT

3

STATEMENT OF THE CASE AND FACTS

3

SUMMARY OF ARGUMENT

4

ARGUMENT

5

ISSUE I: WHETHER ,THE TRIAL COURT FUNDAMENTALLY ERRED IN GIVING AN
INSTRUCTION ON THE LAW OF PRINCIPALS? (RESTATED)
5
CONCLUSION

9

CERTIFICATE OF SERVICE

10

CERTIFICATE OF COMPLIANCE

10

i

TABLE OF CITATIONS
CASES

PAGE #

Applegate v. Barnett Bank of Tallahassee,
377 So. 2d 1150 (Fla. 1979)

5

Dade County School Bd. v. Radio Station WQBA,
731 So. 2d 638 (Fla. 1999)

6

Garzon v. State,
980 So. 2d 1038 (Fla. 2008)

6

Hall v. State,
823 So. 2d 757 (Fla. 2002)

7

Hampton v. State,
336 So. 2d 378 (Fla. 1st DCA 1976)

6

Jacobs v. State,
184 So. 2d 711 (Fla. 1st DCA 1966)

6, 7, 8

James v. State,
695 So. 2d 1229 (Fla. 1997)

5

Roberts v. State,
813 So. 2d 1016 (Fla. 1st DCA 2002)

6, 7

Robertson v. State,
829 So. 2d 901 (Fla. 2002)

6

State v. Roby,
246 So. 2d 566 (Fla. 1971)

6, 7, 8

Statutes
Section 924.051(7). Fla. Stat. (2008)

5
2

PRELIMINARY STATEMENT
Appellant, Taurice Brown, was the defendant in the trial court; this brief
will refer to Appellant as such, Defendant, or by proper name. Appellee, the
State of Florida, was the prosecution below; the brief will refer to Appellee
as such, the prosecution, or the State.
The record on appeal will be referenced by "R",
appropriate page number.

followed by any

References to the trial transcript will be

referenced by "T" followed by any appropriate page number.

"IB" will

designate Appellant's Initial Brief, followed by any appropriate page number.
All bold-type emphasis is supplied, and all other emphasis is contained
within original quotations unless the contrary is indicated.

STATEMENT OF THE CASE AND FACTS
The State accepts Defendant's statement of the case and facts as generally
supported by the record.

3

t

5

SUMMARY OF ARGUMENT
The trial court did not fundamentally err in instructing the jury on the
law of principals.

A jury may be instructed on. the law of principals,

regardless, of whether a defendant is charged as a principal, because principal
liability is read into and included in the original charging document; if the
evidence at trial supports the principal instruction, it is not error to
instruct the jury thusly.

4

s

ARGUMENT
ISSUE I: WHETHER THE TRIAL COURT FUNDAMENTALLY ERRED
IN GIVING AN INSTRUCTION ON THE LAW OF PRINCIPALS?
(RESTATED)

Standard of Review

If properly preserved for appeal, the standard of review applied to a
decision to give or withhold a jury instruction is abuse of discretion.

James

v. State, 695 So. 2d 1229, 1236 (Fla. 1997) (noting that a trial court has
wide discretion in instructing the jury).

Since this issue was not preserved

for appeal, as discussed below, there is no exercise of the trial court's
discretion for the appellate court to review.

Rather, this Court must decide

whether fundamental error occurred when the trial instructed the jury on the
law of principals.

Such a determination is necessarily de novo.
Burden of Persuasion

Appellant bears the burden of demonstrating prejudicial error.

Section

924.051(7), Fla. Stat. (2008), provides:
In a direct appeal ..., the party challenging the judgment or order of
the trial court has the burden of demonstrating that a prejudicial error
occurred in the trial court. A conviction or sentence may not be
reversed absent an express finding that a prejudicial error occurred in
the trial court.
"In appellate proceedings

the decision of a trial court has the

presumption of correctness and the burden is on the appellant to demonstrate
error." Applegate v. Barnett Bank of Tallahassee, 377 So. 2d 1150, 1152 (Fla.
1979).

Moreover, because the trial court's decision is presumed correct, "the

■appel-iee—can—present_any_argument supported bv the record even if not
5

}

t

expressly asserted in the lower court."

Dade County School Bd. v. Radio

- Station WQBA, 731 So. 2d 638, 645 (Fla. 1999); see Robertson v. State, 829 So.
2d 901, 906-907 (Fla. 2002).
Preservation

As Appellant concedes,

the jury instruction regarding the law of

principals was given to the jury without objection.

(IB 18).

An unobjected-

to jury instruction is not preserved for appellate review absent fundamental
error.

Garzon v. State, 980 So. 2d 1038, 1042 (Fla. 2008).

below,

instructing the jury on the law of principals was not error,

As discussed

fundamental or otherwise.
Merits

A jury may be instructed on the law of principals regardless of whether a
defendant is charged as a principal in an information or indictment.

State v.

Roby, 246 So. 2d 566, 570 (Fla. 1971); see also Jacobs v. State, 184 So. 2d
711, 714-715 (Fla. 1st DCA 1966).

"...It is immaterial whether the indictment

or information alleges that the defendant committed the crime or was merely
aiding or abetting in its commission, so long as the proof establishes that he
was guilty of one of the acts denounced by the statute."

Roby, 246 So. 2d 566

at 571; see also Hampton v. State, 336 So. 2d 378, 380 n.9 (Fla. 1st DCA 1976)
(noting that although the defendant was only charged with a substantive crime,
and not aiding and abetting, the State may pursue either theory, so long as
the proof is sufficient for either).
In Roberts v. State, 813 So. 2d 1016, 1017 (Fla. 1st DCA 2002), the

6

7

defendant was convicted for sale or delivery of cocaine.

The jury was

instructed, over the defense's objection, on the law of principals.

Id.

However, the defendant was never charged with aiding or abetting this crime.
Id.

Nevertheless, this Court held it was not error to instruct the jury on

the law of principals, as there was sufficient proof to support such a theory.
Id.
In the instant case, Appellant was indicted by a grand jury in Count I
with first-degree murder and in Count II with attempted first-degree murder.
(R 33-35).

As the court explained in Roby, the acts that involve being a

principal to a crime, as opposed to the actual perpetrator, "must be read into
the formal charges against persons accused of crime, and that they coalesce
with and become a part of the. indictment or information alleging substantive
offenses."

246 So. 2d 566 at 571-572.

Consequently, there was no error for

the trial court to instruct the jury on the law of principals. i
Appellant's argument that it was error to so instruct the jury because he
is ■ entitled to be tried only on what he was accused of in the charging
document has been previously rejected.

In discussing the rationale of Jacobs,

184 So. 2d 711, the court in Roby, noted that the defense's argument "was
based upon the general rule that a defendant is entitled to have the charge

Appellant has not contested the sufficiency of the evidence to support
the instruction on the law of principals, and so cannot assert such a
deficiency in a reply brief. Cf. Hall v. State, .823 So. 2d 757, 763 (Fla.
2002) ("[A]n issue not raised in an initial brief is deemed abandoned and may
not be raised for the first time in a reply brief.").

7

against him proved substantially as alleged in the indictment or information
and cannot be prosecuted for one offense and convicted and sentenced for
another."

246 So. 2d 566, 571.

did the Roby court.

Id.

The Jacobs court rejected that argument, as

Appellant's authority in support of his argument is

inapposite to the instant case, as his argument does not apply to the absence
of language in a charging document accusing a defendant of being a principal.
A jury may be instructed on the law of principals, regardless of whether a
defendant is charged as a principal.

Therefore the trial court did not

fundamentally err in instructing the jury on the law of principals.

8

t.

CONCLUSION
Based on the foregoing discussions, the State respectfully requests this
Honorable Court affirm Appellant's judgment and sentence entered in this case.

9

CERTIFICATE OF SERVICE
I certify that a copy hereof has been furnished to the following by EMAIL
on November 13, 2013: to Robert Friedman, Esq., at Robert.friedman@flpd2.com.
CERTIFICATE OF COMPLIANCE
I certify that this brief was computer generated using Courier New 12
point font.

Respectfully submitted and certified,
PAMELA JO BONDI
ATTORNEY GENERAL
/s/ Wes Paxson III
By: WES PAXSON III
Assistant Attorney General
Florida Bar No. 66487
Office of the Attorney General
PL-01, The Capitol
Tallahassee, FI 32399-1050
(850) 414-3300 (VOICE)
(850) 922-6674 (FAX)
[AGO #13-1-7710]
Attorney for the State of Florida

10

Case 3:17-cv-00416-MMH-JBT

Document 23
3531

Filed 04/15/2020

Page 1 of 2 PagelD

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

TAURICE LEONARD BROWN,

Petitioner,
v.

Case No: 3:17-cv-416-J-34JBT

SECRETARY, FLORIDA
DEPARTMENT OF
CORRECTIONS, et al.,

Respondents.

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
pursuant to this Court’s Order entered April 14. 2020, judgment is hereby entered the
Petition (Doc. I) is denied, and this case is dismissed with prejudice.
Any motions seeking an award of attorney's fees and/or costs must be filed within 14
days of the entry of judgment.
Date: April 15, 2020
ELIZABETH M. WARREN.
CLERK
s/P. Morawski, Deputy Clerk

Copy to:
Counsel of Record
Unrepresented Parties

MIME-Version:1.0
From:cmecf_flmd_notification@flmd.uscourts.gov
To:cmecf_flmd_notices@localhost.localdomain
Bcc:
--Case Participants:
--Non Case Participants:
--No Notice Sent:
Message-Id:<19540048@flmd.uscourts,gov>
Subject Activity in Case 3:17-CV-00416-MMH-JBT Brown v. Secretary, Florida
Department of Corrections et al Order dismissing case
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS
There is no charge for viewing opinions.
U.S. District Court
Middle District of Florida
Notice of Electronic Filing
The following transaction was entered on 4/14/2020 4:58 PM EDT and filed
on 4/14/2020

Case Name: Brown v. Secretary, Florida
Department of Corrections et al
Case Number: 3:17-cv-00416-MMH-JBT
https://ecf.flmd.uscourts.gov/cgi-bin/DktRpt.pi 7335573
Filer:

Document Number: 22

Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.flmd.uscourts.gov/doc1/04 71214 3 57 92 ?caseid=3 3 55 73&de_seq_num=1006cmag
ic num=MAGIC

Docket Text:
ORDER denying [1] Petition and dismissing
case with prejudice, with instructions to the Clerk. Signed by Judge Marcia
Morales Howard on 4/14/2020. (ACT)

3:17-cv-00416-MMH-JBT Notice has been electronically mailed to:
Michael Brent McDermott michael.mcdermott@myfloridalegal.com,
Kenneth.Sparkman@myfloridalegal.com,
crimapptlh@myfloridalegal.com

3:17-cv--C0416-MMH-JBT Notice has been delivered by other means to:
Taurice Leonard Brown
J48890
Tomoka Correctional Institution
3950 Tiger Bay Rd
Daytona Beach, FL 32124

The following document(s) are associated with this transaction:
Document description: Main Document

- r

Case 3:17-cv-00416-MMH-JBT

Document 22
3491

Filed 04/14/2020

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

Page 1 of 40 PagelD

at-

TAURICE LEONARD BROWN,
Petitioner,
v.

)

Case No. 3:17-cv-416-J-34JBT

SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS
et al.,
Respondents.

ORDER
I. Status
Petitioner Taurice Brown, an inmate of the Florida penal system, initiated this
action on April 4, 2017,1 by filing a Petition for Writ of Habeas Corpus under 28 U.S.C. §
2254 (Petition; Doc. 1). In the Petition, Brown challenges a 2012 state court (Duval
County, Florida) judgment of conviction for first degree murder and attempted first degree
murder. Brown raises eight grounds for relief. See Petition at 5-20.2 Respondents have
submitted an answer in opposition to the Petition. See Response to Petition for Writ of
Habeas Corpus (Response; Doc. 16) with exhibits (Resp. Ex.). Brown filed a brief in reply.
See Petitioner’s Reply to the State’s Response to Petition for Writ of Habeas Corpus
(Reply; Doc. 21). This case is ripe for review.

1

See Houston v. Lack. 487 U.S. 266, 276 (1988) (mailbox rule).
2 For purposes of reference, the Court will cite the page number assigned by the
€ewTs~e-leelfeme-deek-e#ng-syctem— ■ ------------- —-------------- —------------- ---------------

i

Original filename: n/a
Electronic document Stamp:
[STAMP d c e c f S t a mp^ID =10 6 9 4 4 7 7 31 [Date = 4/14/2020] [FileNumber=19540047-0]
[6 05087e4b94 2 90calcc 08cbee000da7b9e3 8 8 8db01f f 0 9b9f 2 0alda4 7f2131d86ell04e91e61al4
~~ 034 3 24 5f d"76b4 4 82 a3l3b Ialal9729b2 f e 7e^ 5 iTl? cVc 7 98 3“5 fj]
■

/

Case 3:17-cv-00416-MMH-JBT

Document 22
3492

Filed 04/14/2020

Page 2 of 40 PagelD

II. Relevant Procedural History
On December 16, 2010, a grand jury indicted Brown on charges of first-degree
murder (count one) and attempted first-degree murder (count two). Resp. Ex. B1 at 3334. Brown proceeded to a jury trial, at the conclusion of which the jury found him guilty as
charged as to each count. Resp. Ex. B4 at 594-98. As to count one, the jury made specific
findings that the killing was premediated; Brown carried, displayed, used, threatened to
use, or attempted to use a firearm during commission of the offense; and Brown actually
possessed and discharged a firearm during the commission of the offense causing death.
1<L at 594. As to count two, the jury made specific findings that Brown carried, displayed,
used, threatened to use, or attempted to use a firearm, and that Brown actually possessed
and discharged a firearm. Id, at 597. On December 14, 2012, the circuit court sentenced
Brown to a term of incarceration of life in prison without the possibility of parole, with a
mandatory minimum sentence of life in prison, as to count one, and sixty-five years in
prison, with a twenty-year minimum mandatory, as to count two. Resp. Ex. B7 at 103947. The circuit court ordered the sentence imposed for count two to run consecutively to
the sentence imposed for count one. Id, at 1046.
Brown appealed his convictions and sentences to Florida’s First District Court of
Appeal (First DCA). Id, at 1077. In his initial brief, Brown, through counsel, asserted that
the circuit court fundamentally erred when it instructed the jury on the law of principals.
Resp. Ex. B15. The State filed an answer brief. Resp. Ex. B16. On February 5, 2014, the
First DCA per curiam affirmed Brown’s conviction and sentences. Resp. Ex. B17. Brown
filed a motion for rehearing, which the First DCA denied on April 8, 2014. Resp. Ex. B18.
The First DCA issued the Mandate on April 24, 2014. Resp. Ex. B19.

2

Case 3:17-cv-00416-MMH-JBT

Document 22
3493

Filed 04/14/2020

Page 3 of 40 PagelD

On July 30, 2014, Brown filed a pro se petition for writ of habeas corpus witlvthe
First DCA, in which he alleged that his appellate counsel was ineffective for failing to raise
the following issues on direct appeal: (1) the prosecutor led a witness; (2) the circuit court
erred in not allowing two witnesses to testify; (3) his trial counsel was sleeping at the end
of his trial; and (4) the circuit court erred in denying his motion for judgment of acquittal.
Resp. Ex. C1. On August 19, 2014, the First DCA per curiam denied the petition on the
merits. Resp. Ex. C2.
On February 5, 2015, Brown filed a pro se motion for postconviction relief pursuant
to Florida Rule of Criminal Procedure 3.850 (Rule 3.850 Motion). Resp. Ex. D1 at 1-51.
In the Rule 3.850 Motion, Brown alleged that his trial counsel was ineffective for failing to:
(1) object to the State’s principal theory, move to dismiss, formulate a defense to the
principal theory, and object to the principal instruction; (2) file a motion to dismiss counts
one and two and adequately argue a motion for judgment of acquittal; (3) file a motion to
dismiss count two; (4) consult and discuss with Brown the case and defense strategies;
(5) impeach a state witness; (6) request standard jury instructions for self-defense; (7)
object to improper prosecutorial remarks; and (8) file a sufficient motion for new trial. Id.
On November 23, 2015, the circuit court denied the Rule 3.850 Motion. Id. at 52-71. On
February 15, 2017, the First DCA per curiam affirmed the denial of the motion without a
written opinion, Resp. Ex. D2, and issued the Mandate on March 14, 2017. Resp. Ex. D3.
III. One-Year Limitations Period
This proceeding was timely filed within the one-year limitations period. See 28
U.S.C. § 2244(d).

3

Case 3:17-cv-00416-MMH-JBT

Document 22
3494

Filed 04/14/2020

Page 4 of 40 PagelD

IV. Evidentiary Hearing
In a habeas corpus proceeding, the burden is on the petitioner to establish the
need for a federal evidentiary hearing. See Chavez v. Sec’v, Fla. Dep’t of Corr., 647 F.3d
1057, 1060 (11th Cir. 2011). “In deciding whether to grant an evidentiary hearing, a
federal court must consider whether such a hearing could enable an applicant to prove
the petition’s factual allegations, which, if true, would entitle the applicant to federal
habeas relief.” Schriro v. Landriqan, 550 U.S. 465, 474 (2007); Jones v. Sec’v, Fla. Dep’t
of Corr., 834 F.3d 1299, 1318-19 (11th Cir. 2016), cert, denied, 137 S. Ct. 2245 (2017).
“It follows that if the record refutes the applicant’s factual allegations or otherwise
precludes habeas relief, a district court is not required to hold an evidentiary hearing.”
Schriro, 550 U.S. at 474. The pertinent facts of this case are fully developed in the record
before the Court. Because the Court can “adequately assess [Brown’s] claim[s] without
further factual development,” Turner v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003), an
evidentiary hearing will not be conducted.
V. Governing Legal Principles
A. Standard of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) governs a
state prisoner’s federal petition for habeas corpus. See Ledford v. Warden, Ga.
Diagnostic & Classification Prison, 818 F.3d 600, 642 (11th Cir. 2016), cert, denied, 137
S. Ct. 1432 (2017). '"The purpose of AEDPA is to ensure that federal habeas relief
functions as a guard against extreme malfunctions in the state criminal justice systems,
and not as a means of error correction.’” Id. (quoting Greene v. Fisher, 565 U.S. 34, 38
(2011) (quotation marks omitted)). As such, federal habeas review of final state court

4

Case 3:17-cv-00416-MMH-JBT

■sit-

Document 22
3495

Filed 04/14/2020

Page 5 of 40 PagelD

decisions is ‘“greatly circumscribed' and ‘highly deferential.'” Id (quoting Hill v, Humphrey.
662 F.3d 1335, 1343 (11th Cir. 2011) (quotation marks omitted)).
The first task of the federal habeas court is to identify the last state court decision,
if any, that adjudicated the claim on the merits. See Marshall v. Sec’v. Fla. Dep’t of Corr..
828 F.3d 1277, 1285 (11th Cir. 2016). The state court need not issue a written opinion
explaining its rationale in order for the state court’s decision to qualify as an adjudication
on the merits. See Harrington v. Richter. 562 U.S. 86, 100 (2011). Where the state court’s
adjudication on the merits is unaccompanied by an explanation, the United States
Supreme Court has instructed:
[T]he federal court should “look through” the unexplained
decision to the last related state-court decision that does
provide a relevant rationale. It should then presume that the
unexplained decision adopted the same reasoning.
Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018). The presumption may be rebutted by
showing that the higher state court’s adjudication most likely relied on different grounds
than the lower state court’s reasoned decision, such as persuasive alternative grounds
that were briefed or argued to the higher court or obvious in the record it reviewed. Id. at
1192, 1196.
If the claim was “adjudicated on the merits” in state court, § 2254(d) bars relitigation
of the claim unless the state court’s decision (1) “was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States;” or (2) “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d); Richter, 562 U.S. at 97-98. The Eleventh Circuit describes the limited
scope of federal review pursuant to § 2254 as follows:
5

Case 3:17-cv-00416-MMH-JBT

Document 22
3496

Filed 04/14/2020

Page 6 of 40 PagelD

First, § 2254(d)(1) provides for federal review for claims of
state courts’ erroneous legal conclusions. As explained by the
Supreme Court in Williams v, Taylor, 529 U.S. 362, 120 S. Ct.
1495, 146 L.Ed.2d 389 (2000), § 2254(d)(1) consists of two
distinct clauses: a “contrary to” clause and an “unreasonable
application” clause. The “contrary to” .clause allows for relief
only “if the state court arrives at a conclusion opposite to that
reached by [the Supreme] Court on a question of law or if the
state court decides a case differently than [the Supreme]
Court has on a set of materially indistinguishable facts.” ]d, at
413, 120 S. Ct. at 1523 (plurality opinion). The “unreasonable
application” clause allows for relief only “if the state court
identifies the correct governing legal principle from [the
Supreme] Court's decisions but unreasonably applies that
principle to the facts of the prisoner’s case.” jd.
Second, § 2254(d)(2) provides for federal review for claims of
state courts’ erroneous factual determinations. Section
2254(d)(2) allows federal courts to grant relief only if the state
court’s denial of the petitioner’s claim “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(2). The Supreme Court has not yet defined §
2254(d)(2)’s “precise relationship” to § 2254(e)(1), which
imposes a burden on the petitioner to rebut the state court’s
factual findings “by clear and convincing evidence.” See Burt
v. Titlow, 571 U.S. —, —, 134 S. Ct. 10, 15, 187 L.Ed.2d 348
(2013); accord Brumfield v. Cain, 576 U.S. —, —, 135 S. Ct.
2269, 2282, 192 L.Ed.2d 356 (2015), Whatever that “precise
relationship” may be, ‘“a state-court factual determination is
not unreasonable merely because the federal habeas court
would have reached a different conclusion in the first
instance.”’[3] Titlow, 571 U.S. at —, 134 S. Ct. at 15 (quoting
Wood v. Allen. 558 U.S. 290, 301, 130 S. Ct. 841, 849, 175
L.Ed.2d 738 (2010)).
Tharpe v. Warden. 834 F.3d 1323, 1337 (11th Cir. 2016), cert, denied. 137 S. Ct. 2298
(2017). Also, deferential review under § 2254(d) generally is limited to the record that was

3 The Eleventh Circuit has described the interaction between § 2254(d)(2) and §
2254(e)(1) as “somewhat murky.” Clark v. Att’v Gen., Fla., 821 F.3d 1270, 1286 n.3 (11th
-Grr—2-Q-1-6)-r-eed—denied—1-37-S—Gt--44-Q3~T2Q47-T--------------------------------------------------------6

Case 3:17-cv-00416-MMH-JBT

Document 22
3497

Filed 04/14/2020

Page 7 of 40 PagelD

before the state court that adjudicated the claim-on the merits. See Cullen v, Pinholster,
563 U.S. 170, 182 (2011) (stating the language in § 2254(d)(1) “requires an examination
of the state-court decision at the time it was made”).
Thus, “AEDPA erects a formidable barrier to federal habeas relief for prisoners
whose claims have been adjudicated in state court.” Burt v. Titlow. 134 S. Ct. 10, 16
(2013). “Federal courts may grant habeas relief only when a state court blundered in a
manner so ‘well understood and comprehended in existing law’ and ‘was so lacking in
justification’ that ‘there is no possibility fairminded jurists could disagree.’” Tharpe, 834
F.3d at 1338 (quoting Richter. 562 U.S. at 102-03). This standard is “meant to be” a
“difficult” one to meet. Richter. 562 U.S. at 102. Thus, to the extent that the petitioner’s
claims were adjudicated on the merits in the state courts, they must be evaluated under
28 U.S.C. § 2254(d).
B. Ineffective Assistance of Trial Counsel
“The Sixth Amendment guarantees criminal defendants the effective assistance of
counsel. That right is denied when a defense attorney’s performance falls below an
objective standard of reasonableness and thereby prejudices the defense.” Yarborough
v. Gentry, 540 U.S. 1, 5 (2003) (per curiam) (citing Wiggins v. Smith, 539 U.S. 510, 521
(2003), and Strickland v. Washington, 466 U.S. 668, 687 (1984)).
To establish deficient performance, a person challenging a
conviction must show that “counsel’s representation fell below
an objective standard of reasonableness.” [Strickland,! 466
U.S. at 688, 104 S. Ct. 2052. A court considering a claim of
ineffective assistance must apply a “strong presumption” that
counsel’s representation was within the “wide range” of
reasonable professional assistance. IdL, at 689, 104 S. Ct.
2052. The challenger’s burden is to show “that counsel made
errors so serious that counsel was not functioning as the

7

Case 3:17-cv-00416-MMH-JBT

Document 22
3498

Filed 04/14/2020

Page 8 of 40 PagelD

i counsel’ guaranteed the defendant by the Sixth Amendment,’’
Id,, at 687, 104 S. Ct. 2052.
With respect to prejudice, a challenger must demonstrate “a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different,
A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id., at 694, 104 S. Ct.
2052. It is not enough “to show that the errors had some
conceivable effect on the outcome of the proceeding.” Id., at
693, 104 S. Ct. 2052. Counsel’s errors must be “so serious as
to deprive the defendant of a fair trial, a trial whose result is
reliable.” Id,, at 687, 104 S. Ct. 2052.
Richter. 562 U.S. at 104. The Eleventh Circuit has recognized “the absence of any iron­
clad rule requiring a court to tackle one prong of the Strickland test before the other.”
Ward. 592 F.3d at 1163. Since both prongs of the two-part Strickland test must be
satisfied to show a Sixth Amendment violation, “a court need not address the performance
prong if the petitioner cannot meet the prejudice prong, and vice-versa.” Id, (citing
Holladay v. Haley, 209 F.3d 1243, 1248 (11 th Cir. 2000)). As stated in Strickland: “If it is
easier to dispose of an ineffectiveness claim on the ground of lack of sufficient prejudice,
which we expect will often be so, that course should be followed.” Strickland. 466 U.S. at
697.
A state court’s adjudication of an ineffectiveness claim is accorded great
deference.
“[T]he standard forjudging counsel’s representation is a most
deferential one.” Richter, - U.S. at -, 131 S. Ct. at 788. But
“[establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The
standards created by Strickland and § 2254(d) are both highly
deferential, and when the two apply in tandem, review is
doubly so.” jd, (citations and quotation marks omitted). “The
question is not whether a federal court believes the state
court’s determination under the Strickland standard was
incorrect but whether that determination was unreasonable 8

Case 3:17-cv-00416-MMH-JBT

Document 22
3499

Filed 04/14/2020

Page 9 of 40 PagelD

a substantially higher threshold.” Knowles v. Mirzavance. 556
U.S. 111, 123, 129 S. Ct. 1411,1420, 173 L.Ed.2d 251 (2009)
(quotation marks omitted). If there is “any reasonable
argument that counsel satisfied Strickland’s deferential
standard,” then a federal court may not disturb a state-court
decision denying the claim. Richter. - U.S. at -, 131 S. Ct. at
788.
Hittson v. GDCP Warden, 759 F.3d 1210, 1248 (11th Cir. 2014); Knowles v. Mirzavance,
556 U.S. 111, 123 (2009). In other words, “[i]n addition to the deference to counsel’s
performance mandated by Strickland, the AEDPA adds another layer of deference-this
one to a state court’s decision-when we are considering whether to grant federal habeas
relief from a state court’s decision." Rutherford v. Crosby, 385 F.3d 1300, 1309 (11th Cir.
2004). As such, “[s]urmounting Strickland’s high bar is never an easy task.” Padilla v.
Kentucky, 559 U.S. 356, 371 (2010).
VI. Findings of Fact and Conclusions of Law
A. Ground One
As his first claim for relief, Brown alleges that his trial counsel was ineffective for
failing to object to the State’s use of the principal theory where the State failed to allege
such in the Indictment. Petition at 5-6. Brown maintains that the State first notified the
defense that it would be relying on the principal theory during its opening argument, which
“ambushed” his defense. Id. at 5. According to Brown, his attorney should have moved to
dismiss the Indictment based on the State’s failure “to identify Brown as a principal.” IcL
Moreover, Brown contends that his counsel failed to properly prepare an independent
acts defense to the principal theory and request a jury instruction regarding independent
acts, which counsel should have done after conceding at trial that Brown was present at
the scene but a passenger in Brown’s car actually fired the shots, jd. at 6. Brown alleges

9

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3500

Page 10 of 40 PagelD

that counsel's errors-in this regard ultimately confused- the-jury and -resulted in—his
conviction. Id.
Brown raised a similar claim in his Rule 3.850 Motion. Resp. Ex. D1 at 18-26. In
denying relief on this claim, the circuit court reasoned:
The state need not charge the defendant as a principal as long
as there is proof that individual aided or abetted in the
commission of such crime. State v. Roby, 246 So. 2d 566, 570
(Fla. 1971); see Fogle v. Secretary of Dept, of Corrections,
2014 WL 806375 *7 (M.D. Fla. Feb. 27, 2014) (finding Roby
to be “controlling Supreme Court precedent”).
Vincent Mariano testified Defendant was arguing with
Anthony Wiggins in Mariano’s driveway when Defendant
“reaches in his driver’s seat and pulls out a gun and starts
shooting at [Wiggins].” According to Mariano, Defendant kept
firing at the back end of Wiggins’s car as it traveled toward
Blanding Boulevard. Mariano reported also that the
passenger in Defendant’s car jumped out of Defendant’s car
and fired a gun at Wiggins’s car.
Wiggins testified he
Defendant learned Mariano
rather than from Defendant.
toward Blanding Boulevard,
Wiggins’s car.

and Defendant argued after
purchased drugs from Wiggins
Wiggins stated he drove away
Defendant started shooting at

James Evans testified that as he was driving on
Blanding Boulevard on the morning of the murder, he heard
what “sounded like a giant pack of firecrackers going off.” The
noise, which he later learned were gunshots, came from the
direction of Transylvania Avenue where Mariano’s house is
located. As he heard the gunshots, Evans saw “an SUV strike
a car in front of them and then the truck in front of them.”
Analiza Gobaton was the driver of the SUV.
Officer Clayton Plank was the first officer from the
Jacksonville Sheriff’s Office to arrive at the scene of the car
accident. When he arrived, fire and rescue personnel were
already there tending to Ms. Gobaton. Fire and rescue
personnel notified Plank that the driver had a gunshot wound
on the left side of her head. Dr. Valerie Rao performed the

10

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 11 of 40 PagelD

3501

autopsy on Ms. Gobaton and determined Ms. Gobaton died
from a “[p]enetrating gunshot wound to the head.”
The State did not have to charge Defendant as a
principal-the evidence is overwhelming that Defendant, who
initiated the shooting, at the very least, aided or abetted in the
murder of Ms. Gobaton and the attempted murder of Wiggins.
Counsel’s actions were not deficient because any objection
would be meritless. Peterson v. State, 154 So. 3d 275, 281
(Fla. 2014) (citing Schoenwetter v. State. 46 So. 3d 535, 546
(Fla. 2010) (concluding counsel not ineffective for failing to
make meritless argument). Therefore, Defendant is unable to
satisfy the requirements of Strickland.

As the record demonstrates supra, there was
overwhelming evidence Defendant intended to shoot Mr.
Wiggins, Defendant participated in the shooting, and Ms.
Gobaton’s death was a reasonably foreseeable consequence
of Defendant’s and his passenger’s concerted actions.
Counsel’s performance was not deficient for failing to pursue
a meritless defense. See Lugo v. State, 2 So. 3d 1, 21 (Fla.
2008) (concluding trial counsel not ineffective for failing to
raise non-meritorious issue). Moreover, even if counsel
pursued this theory, there is no reasonable probability that,
“but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” See Strickland, 466
U.S. at 694. Consequently, counsel was not ineffective for
failing to pursue an independent acts defense.

Finally, Defendant claims counsel should have
objected to the principal theory jury instruction because the
jury was confused or misled by the instruction. Defendant
bases his claim on questions the jury had during deliberations.
The Court, however, explained:
It is a question that deals with how they’re to
apply the law, and normally, in general the Court
should rule that no further instruction will be
given. It may be error for the Court to start
answering questions like that, so I’m very
reluctant to do that. . . . and this is, I believe,
encouraged by our appellate court ... for the

11

-fe-

Case 3:17-cv-00416-MMH-JBT

Document 22
Riled 04/14/2020
3502

Page 12 of 40 PagelD

Court to say, I’ve given you all the instructions
you’re going to get: I’ve already given them.
Counsel is not ineffective for failing to make a futile objection.
See Lugo, 2 So. 3d at 21.
jd at 52-71 (record citations omitted). The First DCA per curiam affirmed the denial of
this claim without issuing a written opinion. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits,4 the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the state appellate court’s adjudication of this claim is not
entitled to deference, the claim here is without merit. In Florida,
[ujnder the principal theory, one who helps another commit or
attempt to commit a crime is responsible for all of the acts of
her fellow codefendant if she had a conscious intent the
criminal act be done and performed some act, by word or
deed, that was intended . to aid in inciting, causing,
encouraging, assisting, or advising the other person to either
commit or attempt to commit the crime.
Roberts v. State, 4 So. 3d 1261, 1265 (Fla. 5th DCA 2009). Notably, “[tjhere is no
requirement, however, that the charging document specifically allege that the defendant

4 Throughout this order, in looking through the appellate court’s per curiam
affirmance to the circuit court’s “relevant rationale,’’ the Court presumes that the appellate
courtI.ad.o.p1e.d_t.h.e_sam.e_r_e.a.soii.in.q.^A/jJsojn,J.38^S„C.t.-a.t-1-1-94-._____ _________ ___—
12

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3503

Page 13 of 40 PagelD

acted as a principal in order for- the State to pursue and the jury to be instructed on
principals." Byrd v. State. 216 So. 3d 39, 43 (Fla. 3d DCA 2017) (citing State v. Larzelere.
979 So. 2d 195, 215 (Fla. 2008)). Regarding the independent act defense to the principal
theory Florida’s Fifth District Court of Appeal has explained,
The “independent act” doctrine applies “when one
cofelon, who previously participated in a common plan, does
not participate in acts committed by his cofelon, ‘which fall
outside of, and are foreign to, the common design of the
original collaboration.’” Ray v. State, 755 So. 2d 604, 609 (Fla.
2000) (quoting Dell v. State. 661 So. 2d 1305, 1306 (Fla. 3d
DCA 1995)). Under this limited exception, a codefendant is
not punished for the independent act of a cofelon who
exceeds the scope of the original criminal plan. Id. However,
when the codefendant was a willing participant in the
underlying felony and the murder was committed to further the
original criminal plan, the codefendant is not entitled to an
independent act instruction. See jd.; Lovette v. State. 636 So.
2d 1304, 1306 (Fla. 1994).
Roberts, 4 So. 3d at 1263. However, the “independent act instruction is inappropriate
when the unrebutted evidence shows the defendant knowingly participated in the
underlying criminal enterprise when the murder occurred or knew that firearms or deadly
weapons would be used.” Id. at 1264.
Concerning counsel’s alleged failure to move to dismiss the Indictment, any
objection to the Indictment on the ground it did not identify Brown as a principal would
have been meritless. See Byrd, 216 So. 3d at 43. Counsel cannot be ineffective for failing
to raise an argument that would not have succeeded. See Diaz v. Sec’v for the Dep’t of
Corr., 402 F.3d 1136, 1142 (11th Cir. 2005) (holding counsel cannot be ineffective for
failing to raise a meritless argument); Bolender v. Singletary. 16 F.3d 1547, 1573 (11th
Cir. 1994) (noting that “it is axiomatic that the failure to raise nonmeritorious issues does
not constitute ineffective assistance.”).
13

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3504

Page 14 of 40 PagelD

Turning to Brown’s contention that counsel should have prepared a defense using
the independent acts doctrine and sought a jury instruction on the same, the record
reflects that this doctrine would have been inapplicable given the facts of this case and,
as such, Brown was not entitled to the instruction. At Brown’s trial, Vincent Mariano
testified that he had called Brown early in the morning of October 22, 2010, to purchase
crack cocaine from Brown. Resp. Ex. B10 at 318-19. Brown, however, was taking a long
time to come to Mariano’s house, so Mariano called another dealer, Anthony Wiggins, Id,
at 320-21. Wiggins ultimately arrived first to Mariano’s house and they consummated a
drug deal. jd. at 324-27. As Wiggins was backing his car out of Mariano’s driveway, Brown
drove up to the house. Id. at 327-28. Wiggins and Brown began to have a verbal
confrontation while they were both in their respective cars. jd, Mariano then observed
Brown reach into his driver’s seat, pull out a handgun, and start shooting at Wiggins while
he was still in the car. Id. at 329-30. Wiggins began to pull out of Mariano’s driveway in
order to avoid the gunfire, when both Brown and a passenger exited Brown’s vehicle and
continued shooting in Wiggins’ direction. Id. at 330-33. Wiggins was not hurt, but one of
the stray bullets struck a female motorist, eventually killing her. Resp. Exs. B10 at 307;
B12 at 782-86.
Wiggins also testified at trial, acknowledging he went to Mariano’s house to sell
him crack cocaine. Resp. Ex. B11 at 416-17. Similar to Mariano’s testimony, Wiggins
stated that after he had sold the drugs to Mariano, a car pulled up and Brown exited from
the driver’s seat and appeared angry. Id, at 418-20. Wiggins was in the process of driving
away when the man began shooting at him, at which point Wiggins grabbed his own gun
and returned fire. jd, at 421-22. Wiggins was only able to fire off one round before his gun

14

Hfc.-

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3505

Page 15 of 40 PagelD

jammed. Id, at 423-24. With his gun jammed, Wiggins sped down the street to avoid being
shot, at the same time he observed Brown in the middle of the street continuing to shoot
at him, with several rounds hitting his vehicle, jcl at 423-28. Wiggins stated that he saw
a passenger exit Brown’s car as well, but barely saw him and did not observe him
shooting, id. at 461-63. Law enforcement officers later confiscated Wiggins’ gun. jd, at
466-67. Although Wiggins did not personally know Brown, he made a positive in-court
identification of Brown as the shooter. Id. at 426-27.
Multiple residents who lived on the street where the shooting occurred, testified
consistently with Mariano and Wiggins, stating that they saw a man in the street shooting
at a car as it drove away, although some of the witnesses testified they only saw one
shooter in the street, jcl at 470-83, 491-534, 545-65. The State also presented the
testimony of Jason Garaway, who met up with Brown later that day after the incident.
Resp. Ex. B12 at 707-08. Garaway testified he was to meet with Brown earlier that day,
but Brown never showed up. jd. Later that day, however, Brown called him and told him
he changed his phone number, jd. at 708. When they finally met up, Brown apologized
for the delay and told him “he got caught up in something.” Id, at 709.
Brown’s brother, Maurice Henderson, testified that he owned a 9mm GLOCK
handgun that he had kept in Brown’s bedroom closet in their father’s home. Id, at 720-21.
After the shooting, he realized his gun was missing and had no idea what happened to it.
Id. at 722-23. Notably, Brown made a jail call in which he told a woman on the phone how
he left the scene of the shooting, jd, at 793-97. Law enforcement ultimately obtained
Wiggins, Brown, and Mariano’s cellphone records and location data. Resp. Exs. B12 at
798-99; B13 at 806-23. The cellphone records corroborated Mariano and Wiggins’

15

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3506

Page 16 of 40 PagelD

testimony, with calls and texts from the time immediately leading up to the shooting. Resp,
Ex. B13 at 811-17. The cellphone tower data confirmed that Brown, Wiggins, and Mariano
were at or around the same geographical location at the time of the incident, Jd. at 82223.
A firearm expert, Thomas Pulley, testified at the trial as well. Jd. at 845-79. He
examined seventeen casings, bullet fragments, and four firearms, including Wiggins’ gun.
Id. at 853-54. In total, Pulley concluded three guns, all using 9mm caliber ammunition,
were involved in the shooting, with only one casing linked to Wiggins’ firearm. Id. at 85455. Notably, the bullet fragments recovered from the victim’s head was not shot from
Wiggins’ gun. Id. at 864. Pulley also testified that fourteen of the casings were consistent
with being shot from a 9mm GLOCK pistol, which was the same type of gun that Brown’s
brother kept in Brown’s room and which went missing. Id at 864-65. The other gun
involved fired only two shots, but Pulley could not determine if it was one person using
two guns or two people using two guns. Jd at 855, 875.
Although Brown presented witnesses and evidence in his defense, none of his
witnesses presented testimony to suggest Brown did not play a role in the shooting or
that the passenger acted independently. Accordingly, no evidence would have supported
Brown’s contention that he did not shoot at the victims and that the passenger in his car
acted independently in shooting at the victims. Indeed, the record reflects quite the
opposite, with two eyewitnesses confirmed Brown was the shooter, and forensic evidence
indicated that fourteen of the shots came from a gun similar to the one Brown’s brother
kept in Brown’s room that subsequently went missing. On this record, the independent
act instruction would have been inappropriate in light of the unrebutted evidence showing

16

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3507

Page 17 of 40 PagelD

Brown knowingly participated in the shooting. See Roberts, 4 So. 3d at 1264. As such
counsel could not have been deficient for failing to argue this point as a defense or seek
an independent act instruction. See Diaz, 402 F.3d at 1142; Bolender, 16 F.3d at 1573.
Moreover, this evidence further demonstrates that even if this instruction was given, there
is no reasonable probability the outcome of the trial would have been different because
the State presented extensive evidence showing Brown’s active participation in the
shooting. Based on the foregoing, the relief Brown seeks in Ground One is due to be

denied.
B. Ground Two
In Ground Two, Brown avers that his trial counsel was ineffective because he failed
to move to dismiss the Indictment and properly argue a motion for judgment of acquittal.
Petition at 8-9. According to Brown, the State failed to allege felony murder in the
Indictment and did not allege what felony formed the basis for the felony murder theory.
Id. at 8. Brown contends that his counsel should have argued that the State could not
establish premeditation because a stray bullet hit the deceased victim who was an
innocent bystander. Id. at 9.
In his Rule 3.850 Motion, Brown raised a similar claim. Resp. Ex. D1 at 26-30. In
denying relief on this claim, the circuit court explained:
Defendant is correct in that the State did not charge
Defendant with felony murder in Count One. Instead, the
State charged Defendant with and the jury found
premeditated murder in Count One. Likewise, the State did
not charge Defendant with felony murder in Count Two. The
State had no reason to charge Defendant with felony murder
in either count.
Defendant further claims there was insufficient
evidence to sustain a finding of premeditation in either Count

17

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3508

Page 18 of 40 PagelD

One or Count Two. "Premeditation exists when there is a fully
formed conscious purpose to kill.” Boyd v. State. 910 So. 2d
167, 181 (Fla. 2005). “Premeditation may be formed in a
moment and need only exist for such time as will allow the
accused to be conscious of the nature of the act he is about
to commit and the probable result of that act.” Williams v.
State, 967 So. 2d 735, 757 (Fla. 2007) (citing Boyd v. State,
910 So. 2d 167, 181 (Fla. 2005)).
As recounted supra, Defendant fired multiple shots at
Wiggins's car as it drove down Transylvania Avenue toward
Blanding Boulevard. Consequently, there was sufficient
evidence that Defendant had a fully formed conscious
purpose to kill Wiggins and had more than enough time to be
conscious that shooting at Mr. Wiggins would cause harm.
Consequently, there was sufficient evidence of premeditation
and, any objection by counsel would have been meritless. See
Lugo, 2 So. 3d at 21. Defendant is not entitled to relief on
Ground Two.
i

]d, at 58-59 (record citations and footnote omitted). The First DCA per curiam affirmed
the denial of relief, without a written opinion. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the state court’s adjudication of this claim is not entitled to
deference, this claim in Ground Two is without merit. In Florida,
“It is well established that an indictment which charges
premeditated murder permits the State to prosecute under
18

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3509

Page 19 of 40 PagelD

both the premeditated and felonymurder theories.” Parker v.
State, 904 So. 2d 370, 382-83 (Fla. 2005). We have further
held that “[t]he State need not charge felony murder in an
indictment in order to prosecute a defendant under alternative
theories of premeditated and felony murder when the
indictment charges premeditated murder.” Kearse v. State,
662 So. 2d 677, 682 (Fla. 1995). Similarly, this Court has
“repeatedly rejected claims that it is error for a trial court to
allow the State to pursue a felony murder theory when the
indictment gave no notice of the theory.” Gudinas, 693 So. 2d
at 964.[5]
Williams v. State, 967 So. 2d 735, 758-59 (Fla. 2007). Moreover, “[bjecause the State
has no obligation to charge felony murder in the indictment, it similarly has no obligation
to give notice of the underlying felonies that it will rely upon to prove felony murder.”
Kearse v. State, 662 So. 2d 677, 682 (Fla. 1995). Based on this precedent, Brown’s
arguments supporting his theory that counsel should have filed a motion to dismiss and
argue a motion for judgment of acquittal fail as a matter of law. Any attempt by Brown’s
counsel to move to dismiss the indictment or argue for a judgment of acquittal based on
the State’s failure to allege felony murder in the Indictment would not have been
successful. See Williams, 967 So. 2d at 758-59; Kearse, 662 So. 2d at 682. Therefore
counsel was not deficient in failing to make these arguments. See Diaz, 402 F.3d at 1142;
Bolender, 16 F.3d at 1573. As such, relief on the claim in Ground Two is due to be denied.
C. Ground Three
As Ground Three, Brown asserts that his counsel was ineffective because he did
not object to jury instructions regarding felony murder and premeditation. Petition at 1011. The basis for the objection is the same as that given by Brown in support of the claim
that counsel should have moved to dismiss the Indictment. hi Additionally, he contends

19

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 20 of 40 PagelD

3510

that these instructions afforded the State the opportunity to present facts not in evidence,
specifically that Brown went to Mariano’s house to stop Wiggins from selling drugs in his
territory. |d. According to Brown, this argument “conflicted with count two’s supposed
underlying felony of ‘in the commission of an attempt to commit first-degree murder,”’
which then “allowed the State to transfer intent from count two to count one.” Id. at 11.
Brown raised a similar claim with the state postconviction court. Resp. Ex. D1 at
30-32. The circuit court denied relief on this claim, stating in part:
According to Defendant in his next subclaim,
transferring Defendant’s intent to shoot Wiggins to an intent
to shoot Ms. Gobaton was improper. “The doctrine of
transferred intent, by definition, operates to transfer the
defendant’s intent as to the intended victim to the unintended
victim, and nothing more.” Mordica v. State, 618 So. 2d 301,
304 (Fla. 1st DCA 1993). The facts as discussed supra,
clearly demonstrate Defendant’s intent to shoot Mr. Wiggins,
which means that intent transfers to an intent to kill Ms.
Gobaton as well.
Id. at 60-61 (emphasis in original and record citations omitted). The First DCA per curiam
affirmed the denial of this claim. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.

20

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3511

Page 21 of 40 PagelD

Nevertheless, even if the First DCA's adjudication of this claim is not entitled to
deference, the claim in Ground Three is without merit. As explained above in the Court’s
analysis of Ground Two, the State properly presented and argued a felony murder theory
as to premeditation. See Williams, 967 So. 2d at 758-59; Kearse, 662 So. 2d at 682.
Therefore, the State was entitled to jury instructions on felony murder and premeditation.
Accordingly, counsel cannot be deemed deficient for failing to raise a meritless objection.
See Diaz, 402 F.3d at 1142; Bolender, 16 F.3d at 1573.
Regarding Brown’s contention that the State discussed facts not in evidence, the
Court disagrees. During closing arguments “a prosecutor may ‘assist the jury in analyzing,
evaluating, and applying the evidence’ and, therefore, may ‘urge[ ] the jury to draw
inferences and conclusions from the evidence produced at trial.” United States v. Adams,
339 F. App’x 883, 886 (11th Cir. 2008) (quoting United States v. Johns. 734 F.2d 657,
663 (11th Cir.1984)). Here, the record reflects that both Brown and Wiggins sold drugs.
Resp. Ex. B10 at 315-17. Mariano specifically testified that he was concerned that Brown
and Wiggins would meet at his house at the same time because he did not want a
confrontation between the two dealers. Id at 322-23. Therefore, a logical inference to
draw from this testimony was that Brown had a territorial issue with Wiggins. See Adams,
339 F. App’x at 886.
As to Brown’s claim that the instructions led to the improper transfer of intent from
count two to count one, this claim fails as a matter of law. As the circuit court noted, “[t]he
doctrine of transferred intent, by definition, operates to transfer the defendant's intent as
to the intended victim to the unintended victim, and nothing more.” Mordica, 618 So. 2d
at 304 (emphasis in original). “Accordingly, the doctrine of transferred intent ... is

21

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 22 of 40 PagelD

3512

governed and limited by the intent operative as to the intended victim, not the unintended -—
victim, and the severity of the offense predicated on the doctrine of transferred intent is
that applicable had the intended victim been the one injured.” ]d. Based on this doctrine,
the State in the case at bar needed to prove that Brown had a premeditated design to kill
Wiggins in order for Brown to be found guilty of first-degree premeditated murder of
Gobaton. The State charged Brown with the attempted first-degree murder of Wiggins;
therefore, that charge included the same intent and premeditation needed to establish the
same element as to first-degree murder charge. As noted above, the record contains
ample evidence that Brown had “a full-formed conscious purpose to kill” Wiggins.
Twileqar v. State, 42 So. 3d 177, 190 (Fla. 2010). Evidence suggests Brown did not like
the fact Wiggins was selling drugs to Mariano and that he used a firearm to fire multiple
shots at Wiggins at Mariano’s house and while Wiggins fled the scene. Therefore, the jury
could properly conclude that Brown had the requisite premeditation necessary to support
a conviction as to the first-degree murder of Gobaton. See id. (noting that evidence of
premeditation may be inferred from such facts as the type of weapon used, the presence
or absence of provocation, previous difficulties between the parties, the manner in which
the homicide occurred, and the nature of the wounds inflicted); Mordica, 618 So. 2d at
304. In light of the evidence presented as discussed above, any objection to the
challenged jury instructions would have been meritless and, therefore, counsel was not
deficient for failing to raise these objections. See Diaz, 402 F.3d at 1142; Bolender, 16
F.3d at 1573. For the above stated reasons, Brown is not entitled to relief on his claim in
Ground Three.

22

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 23 of 40 PagelD

3513

D. Ground Four
Brown argues that his counsel gave ineffective assistance by conceding certain
evidentiary points at trial without Brown’s permission. Petition at 13-15. Specifically, he
contends that counsel, without his permission, admitted that Brown went by the alias
“Josh,” Brown was a drug dealer, Brown was present at the scene of the shooting, the
shooter was the passenger in Brown’s vehicle, and Brown fled the scene with the
passenger. jcL at 13-14. Brown maintains that his counsel never discussed the
concession of these facts with him, and he did not authorize his counsel to concede these
points. Id. at 14. Had counsel discussed these matters with him, Brown asserts that he
would have testified in support of an independent act defense. Id According to Brown, he
would have testified that Mariano called him and asked him to bring drugs to Mariano’s
house, that Wiggins was the aggressor and fired first, that Brown’s passenger fired all the
shots, and that he had no idea his passenger would shoot at Wiggins. Id. Based on
counsel’s concessions, Brown now argues that counsel’s advise not to testify was
unreasonable. Id Additionally, he avers that counsel failed to introduce sufficient
evidence to support the independent act theory and request a jury instruction on the
same. Id. at 15.
In his Rule 3.850 Motion, Brown raised a similar claim. Resp. Ex. D1 at 33-37. The
circuit court denied relief on this claim, writing:
To start, these facts were brought out by the prosecutor
in his opening statement to the jury. Considering defense
counsel’s opening statement in its entirety, it is reasonable for
counsel to concede the facts specified above. The thrust of
the opening statement was the passenger, not Defendant,
fired at Wiggins. “But Taurice Brown was there to sell drugs
but he didn’t-he didn’t fire this weapon ....’’ According to
counsel, Defendant dropped to the ground seeking cover
23

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3514

Page 24 of 40 PagelD

when the shots started. Counsel went on to explain that
“there’s somebody else with Mr. Brown in the car, the
passenger. What does the passenger do? The passenger
gets out of the car and starts firing in the direction of Anthony
Wiggins.”
Counsel was not ineffective for conceding the facts
Defendant identifies in this claim. These facts were
substantiated by competent evidence and did not interfere
with counsel’s reasonable defense. Defendant is not entitled
to relief on Ground Four.
id. at 61-62 (record citations and footnote omitted). The First DCA per curiam affirmed
the denial of relief without a written opinion. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the state appellate court’s adjudication of this claim is not
entitled to deference, the claim is meritless because Brown cannot demonstrate
prejudice. Each of the factual points Browns contends counsel conceded without his
permission was unrebutted at trial. At trial, Mariano testified that at the time of the incident
he knew Brown only by the name “Josh;” however, Mariano made an in-court
identification of Brown as the man he knew as Josh and he also picked out Brown’s
photograph in a photospread law enforcement showed to him. Resp. Ex. B10 at 315-16,

24

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 25 of 40 PagelD

3515

-351-54-. Concerning the-concession that Brown was a drug dealer, Mariano- .testi.fied
Brown sold drugs, k± at 315-16, and, most notably, in this claim itself, Brown specifically
states that had he been able to testify he would have stated that he went to Mariano’s
house to sell drugs. Petition at 14. Likewise, Brown asserts that he also would have
testified that he went to Mariano’s house and that the passenger was the shooter, facts
which Brown claims his counsel should not have conceded. Id. Thus, he would have
testified to the same facts his counsel conceded. Moreover, as noted above, the State
presented substantial evidence of Brown’s guilt, including cellphone data placing Brown
at the scene, several eyewitnesses who positively identified Brown as the shooter or saw
his car, forensic evidence demonstrating that only one of the seventeen casings found at
the scene could be attributed to Wiggins, and that fourteen of the seventeen casings were
most likely fired from a 9mm GLOCK, the same type of gun that Brown’s brother stored
in Brown’s closet and that went missing at the time of the incident. Based on this evidence,
the Court finds there is no reasonable probability the outcome of the trial would have been
different had counsel not conceded these points during opening statements. Accordingly,
relief on the claim in Ground Four is due to be denied.
E. Ground Five
Brown maintains that his counsel was ineffective for failing to impeach Wiggins
and Mariano. Petition at 15-16. Concerning Wiggins, Brown asserts his counsel should
have impeached Wiggins’ trial testimony that Brown shot at him while he drove away with
Wiggins’ deposition testimony that Detective Bodine told Wiggins that Brown was the
person who shot at him and that he could, not identify Brown or his brother in a photo
lineup, jd. at 15. As to Mariano, Brown contends that his counsel should have properly

25

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 26 of 40 PagelD

3516

cross-examined Mariano’s knowledge of the man Mariano knew as “Josh.” Id. According
to Brown, Josh is another person who was incarcerated at that time. Id. Additionally,
Brown avers his counsel should have brought out “the many inconsistencies” that Mariano
gave regarding his identification of Brown, such as whether he was wearing a hoodie or
a baseball cap. jd. at 15-16. But for his counsel’s alleged failure to properly impeach these
witnesses, Brown argues that the result of the trial would have been different as the jury
would have seen that both witnesses were deceptive. Id. at 16.
Brown raised a similar claim in his Rule 3.850 Motion. Resp. Ex. D1 at 38-40. The
circuit court, however, denied relief, explaining:
Defendant states Wiggins testified at his deposition
that Detective Bodine told him Defendant was the one
shooting at him. The deposition, however, shows Defendant
is mistaken. Wiggins testified Detective Bodine told him the
shooter’s name “[a]fter I pointed him out." In no way does.this
mean, as Defendant implies, that the detective told Wiggins
Defendant was shooting at Wiggins. It means the detective
told Wiggins the name of the individual in the photograph after
Wiggins has already identified the shooter.
Defendant also refers to the Arrest Report to show
Wiggins did not know the suspect and could not identify him.
The information in the Arrest Report does not contradict
Wiggins’s deposition statement or trial testimony. Wiggins,
clearly, did not know Defendant’s name until after he identified
Defendant’s photograph. Consequently, counsel had no basis
to impeach Wiggins on this point.
Defendant also contends counsel should have
highlighted many inconsistencies in Mariano’s identification of
Defendant. The record, however, belies Defendant's
contention. At trial, counsel questioned Mariano about how
Mariano’s story to the police evolved “throughout the day and
the next couple of days . . . .” Counsel further questioned
Mariano about looking at photos to identify the shooter and
twice picking the wrong individual. Counsel brought out that
Mariano told the police multiple stories that were not true
when he was brought in for questioning. Mariano testified he
26

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 27 of 40 PagelD

3517

'X'.-

wasijoot forthcoming with the police. According to Mariano, he
was afraid and did not want to be involved in Ms. Gobaton’s
murder. Counsel extensively questioned Mariano and
exposed for the jury the inconsistencies in Mariano’s reports
to the police. Defendant is not entitled to relief on Ground Five.
Id. at 62-63 (emphasis in original and record citations omitted). The First DCA per curiam
affirmed the circuit court’s denial of this claim. Resp. Exs. D2; D3.
To the extent that the First DCA decided these claims on the merits, the Court will
address the claims in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of these claims was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of these claims.
Nevertheless, even if the state appellate court’s adjudication of these claims is not
entitled to deference, Brown’s claim is meritless. Regarding Wiggins, as the circuit court
pointed out, Wiggins’ actual deposition testimony refutes Brown’s assertion. Wiggins
stated in his deposition that on the day of the incident he did not know of Brown, but
Detective Bodine told him Brown’s name “[ajfter I pointed him out” of a photo lineup. Resp.
Ex. D1 at 386-87. As such, counsel could not have used this information to impeach
Wiggins’ trial testimony because, at trial, Wiggins testified that, at the time of the incident,
he did not recognize the man that was shooting at him. Resp. Ex. B11 at 418-20.
Therefore, his counsel was not ineffective for failing to raise this meritless issue. See
Diaz. 402 F.3d at 1142; Bolender, 16 F.3d at 1573.

27

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 28 of 40 PagelD

3518

Turning to Mariano, the Court finds the record again refutes Brown’s allegations.
Mariano made both an out-of-court and an in-court identification of Brown as the shooter
and the man he knew as “Josh.” Resp. Ex. B10 at 315-16, 351-54. Moreover, another
witness who knew Brown, Jason Garaway, testified that he knew Brown by the name
“Josh" as well. Resp. Ex. B12 at 706. During cross-examination, Brown’s counsel elicited
testimony from Mariano in which he admitted to giving law enforcement multiple, varying
stories of what occurred that morning. Resp. Ex. B10 at 383-87. Counsel also got Mariano
to admit the first two people he picked out of the photospread were the wrong individuals.
Id. at 387-88. However, Mariano testified that he lied at first because he was scared and
did not want to be involved, but eventually told law enforcement the truth, jd, at 387.
Based on this record, the Court finds counsel adequately cross-exarnined Mariano
regarding the inconsistencies in his stories to police.
Moreover, as noted above, law enforcement obtained Brown’s cellphone records
and location data, both of which corroborated Wiggins and Mariano’s testimony and place
Brown at the same geographical location as Wiggins and Mariano. Brown, himself, in a
jailhouse call told the person on the other end of the line that he was at the scene. Based
on this evidence and the other evidence outlined above, the Court finds there is no
reasonable probability the outcome of the trial would have been different had counsel
asked these questions. In light of the above analysis, Brown is not entitled to relief on his
claim in Ground Five:
F. Ground Six
In Ground Six, Brown argues that his counsel was ineffective for failing to request
a self-defense jury instruction. Petition at 16-17. According to Brown, there was evidence

28

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 29 of 40 PagelD

3519

to support this instruction in that the testimony of several witnesses indicated that Wiggins
was shooting at Brown and that Wiggins shot first. ]d. at 16. He maintains that there was
a valid defense theory that Brown was just there to sell drugs and that he was not the
shooter. Id.
Brown raised a similar claim in his Rule 3.850 Motion. Resp. Ex. D1 at 41-44. The
circuit court denied relief on this claim, reasoning:
According to the theory of self defense, an individual
can lawfully use deadly force without retreating if that
individual reasonably believes such force “is necessary to
prevent imminent death or great bodily harm to himself or
herself or another or to prevent the imminent commission of a
forcible felonyf.]” § 776.012, Fla. Stat. (2010). Similarly, to
qualify for a stand-your-ground instruction, a person must
“have held a reasonable fear of imminent peril of death or
great bodily harm ....”§ 776.013(1) (2010). A defendant who
provoked the fight and did not exhaust every reasonable
means to escape such danger cannot use the defense. §
776.041, Fla. Stat. (2010).
As the record shows, there was ample evidence
Defendant initiated the attack when he started shooting at
Wiggins. Wiggins testified he fled, and Defendant continued
to shoot at the back of Wiggins’s car. Other witnesses
corroborated this evidence by testifying they saw a car driving
up Transylvania Avenue toward Blanding Boulevard while
someone was standing in the middle of Transylvania Avenue
shooting at the fleeing car.
Wiggins admitted he fired one shot at Defendant after
Defendant started shooting at him. According to Wiggins, as
he was fleeing Defendant’s gunshots, he could only fire one
shot because his gun jammed. Thomas Pulley, a firearm
examiner with the Florida Department of Law Enforcement,
reported of the seventeen cartridge cases found at the scene,
only one belonged to Wiggins’s gun. Of the remaining sixteen
casings, Pulley testified that fourteen came from one gun and
two from another.
Although law enforcement never located the gun from
which the fourteen casings came, Pulley was able to conclude

29

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3520

Page 30 of 40 PagelD

the gun that fired the fourteen shots was a Gtdck 9mm pistol.
Defendant’s brother, Maurice Henderson, testified that within
a month after Ms, Gobaton’s murder, he discovered his Glock
9mm was missing. According to Henderson, he kept that gun
in his residence, specifically, in Defendant’s bedroom closet.
The evidence is sufficient to show Defendant was the
aggressor and could not reasonably believe he was in danger.
Therefore, the threat to Defendant followed his provocation.
Even as that threat ended, Defendant continued firing.
Consequently, counsel was not ineffective for failing to
request a self defense or stand your ground instruction as
there was no evidence to support either instruction. Defendant
is not entitled to relief on Ground Six.
id. at 63-65 (record citations and footnote omitted). The First DCA per curiam affirmed
the circuit court’s denial of relief on this claim. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the First DCA’s adjudication of this claim is not entitled to
deference, Brown’s claim is without merit. The United States Supreme Court has noted
that “[sjolemn declarations in open court carry a strong presumption of verity.” Blackledqe
v. Allison. 431 U.S. 63, 74 (1977); see also Kelley v. State. 109 So. 3d 811,812-13 (Fla.
1st DCA 2013) (holding a court may deny postconviction relief where sworn
representations the defendant made to the trial court refute the claims). At a pretrial
30

Case 3:17-cv-00416-MMH-JBT

Document 22

Filed 04/14/2020

Page 31 of 40 PagelD

3521

hearing, defense counsel represented to the circuit court that he had spoke with Brown
about a self-defense theory and that Brown was willing to stipulate that they would not
use a self-defense theory nor would they request an instruction on such. Resp. Ex. B8 at
1179, 1193-94. The circuit court then inquired with Brown concerning his counsel’s
representation, and Brown affirmatively acknowledged that he agreed to not present a
self-defense argument. Id. at 1194. Accordingly, Brown’s sworn representations to the
circuit court that he did not want to pursue a self-defense theory at trial refute his claim
here. See Blackledqe, 431 U.S. at 74 Kelley, 109 So. 3d at 812-13.
Moreover, the record would not support a self-defense theory. Under Florida law,
in order to use deadly force in self-defense, a person must “reasonably believe[] that such
force is necessary to prevent imminent death or great bodily harm to himself or herself or
another or to prevent the imminent commission of a forcible felony.” § 776.012(1), Fla.
Stat. (2010). Notably, the justifiable use of deadly force is generally not available to a
person who provokes the use of force. § 776.0041, Fla. Stat. (2010). As previously
discussed, the unrebutted evidence at trial showed that Brown provoked the use of force
by shooting at Wiggins first. Moreover, Wiggins fled the scene after his gun jammed but
Brown continued to shoot at Wiggins as he fled the scene. Therefore, not only does the
evidence demonstrate that Brown did not have a reasonable belief that such force was
necessary to prevent imminent death or great bodily harm, but he provoked the action.
Thus, he would not have been entitled to a self-defense instruction. The Court further
notes that Brown was engaged in unlawful activity, selling drugs, at the time of the
shooting, which would further make a self-defense theory inapplicable. See §
776.013(2)(c), Fla. Stat. (2010) (“The presumption set forth in subsection (1) does not

31

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3522

Page 32 of 40 PagelD

apply if: ... The person who uses defensive force is engaged in an unlawful activity or
issuing the dwelling, residence, or occupied vehicle to further an unlawful activity.”). In
light of the above analysis, relief on the claim in Ground Six is due to be denied.
G. Ground Seven
Next, Brown contends that his counsel failed to object to prejudicial remarks the
prosecutor made during closing arguments. Petition at 17-19. Specifically, Brown takes
issue with, nine comments that he contends amounted to the prosecutor testifying as a
witness, commenting on facts not in evidence, making improper inferences, shifting the
burden of proof, commenting on Brown’s decision not to testify and not to present
evidence, and improperly invoking the sympathy of the jury. IdL According to Brown, these
remarks prejudicially "infected the jury” and resulted in a verdict that would not have
occurred had these comments not been made. Id. at 19.
In his Rule 3.850 Motion filed in state court, Brown raised a substantially similar
claim. Resp. Ex. D1 at 44-47. In denying relief on this claim, the circuit court stated:
Listed below in italics are the prosecutor’s comments
Defendant challenges.
[TJhis defendant went somewhere to sell
drugs, got mad over something and decided to
go try to kill somebody else. And as a result, one
of those bullets that was intended to kill Mr.
Wiggins killed a young lady.
Defendant claims the prosecutor was testifying on facts
not in evidence and making prejudicial inferences. The
prosecutor was simply commenting on the evidence in the
record as discussed supra.
Why did he need someone else with him
in the car? And another dealer was interfering in
his business or so he perceived it.

32

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3523

Page 33 of 40 PagelD

Defendant believes the prosecutor was making ~
improper inferences and testifying as a witness to facts not in
evidence. These comments were fair inferences based on the
facts in evidence as discussed supra.
That’s why his testimony is credible.
According to Defendant, the prosecutor was improperly
vouching or bolstering Mariano’s testimony. A prosecutor
cannot bolster a witness’s testimony by vouching for that
witness’s credibility. Williamson v. State. 994 So. 2d 1000,
1013 (Fla. 2008); Gorbv v. State. 630 So. 2d 544, 547 (Fla.
1993). “Improper bolstering occurs when the State places the
prestige of the government behind the witness or indicates
that information not presented to the jury supports the
witness’s testimony.” Hutchinson v. State, 882 So. 2d 943,
953 (Fla. 2004) abrogated on other grounds by Deparvine v.
State. 995 So. 2d 351 (Fla. 2008); see Brooks v. State. 762
So. 2d 879, 902 (Fla. 2000) (reasoning state cannot influence
jury with “composite judgment” of state attorney office’s
investigations and discussions taking place before trial). The
state can, however, argue “a conclusion that can be drawn
from the evidence.” Valentine. 98 So. 3d at 56 (citation
omitted).[6] Here, the prosecutor was pointing out to the jury
that other evidence corroborated Mariano’s testimony.
Consequently, this comment was a proper inference drawn
from the evidence.
I mean what the defense would have you
believe is that these trees and these other
people that imagine-imagined that he was
shooting back or he was shooting.
Defendant claims this comment was designed to
ridicule the defense and its witnesses. Considering the
comment in context, the prosecutor was commenting on Mr.
Wiggins’s testimony and whether it comported or agreed with
other testimony. Kendall Anderson testified for the defense at
trial. Defense counsel questioned Anderson about the bullet
strikes to trees around Mariano’s house. It is reasonable for
the prosecutor to challenge and comment on the evidence
and its contribution to the defense.

6~Vatentine v~State7~98~S o—3d-44-f-F-la26-T2-V.33

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3524

Page 34 of 40 PaqelD

[T]he defendant repositioned to get a
better shot at Mr. Wiggins.
Defendant asserts this comment was based on facts
not in evidence. Defendant is mistaken because, as stated
supra. Defendant was at his car when he began shooting, and
witnesses testified that they saw the shooter in the street
continuing to fire at Mr. Wiggins’s car as it drove away.
Consequently, the prosecutor was properly commenting on
facts in evidence.
See, the problem why they can’t even
admit that this is Taurice Brown is because of
that principal law.
Defendant asserts this statement, made in the State’s
rebuttal argument, was highly prejudicial and commented “on
Defendant’s silence, burdenshifting or remarks on
Defendant’s guilt.” Defendant, however, is mistaken. This
comment addressed the defense’s theory that bullet strikes
on trees on and near Mariano’s property showed that shots
were fired in Defendant’s direction. The State was merely
commenting on the evidence Defendant presented at trial.
Notice Mr. Bateh didn’t challenge that.
He didn’t challenge the fact that Mr. Wiggins
was able to identify that man here in court todayor I’m sorry-two days ago.
According to Defendant, this was a comment on
Defendant’s failure to present evidence and shifted the
burden to Defendant. Defendant’s claim has no merit. If
nothing else, Defendant is unable to show prejudice in that
this comment caused the jury to reach a more severe verdict
than it would without the prosecutor making the comment.
See State v. DiGuilio. 491 So. 2d 1129, 1139 (Fla. 1986)
(reasoning error is harmless if no reasonable probability it
affected verdict).
Will they be held accountable for what
they have been charged with? Absolutely. But
he is on trial here today.
Defendant contends this amounted to vouching for and
bolstering Mariano’s and Wiggins’s credibility and was based
on facts not in evidence. First, nothing in that comment refers
34

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3525

Page 35 of 40 PagelD

to credibility and, moreover, there are facts in evidence
relating to both witnesses’ pending charges.
And when you can’t argue the fact or the
law, you put other people on trial.
Defendant alleges this comment “was designed to
make it appear that Brown had no right to challenge the
State’s witnesses, invoke the sympathy of the jury that Brown
had the audacity to put the witnesses through the ordeal of a
trial of that the trial was a farce because Brown is guilty.”
Defendant’s allegations are leaping to unwarranted
conclusions. The comment when viewed in its entirety shows
the prosecutor was simply challenging the defense’s version
of events. “Their version is that this defendant was there to
sell drugs and when that gunfire started, which they say Mr.
Wiggins started, he just hit the ground, didn’t do anything at
that point.” This was a proper comment.
Resp. Ex. D1 at 65-69 (record citations omitted). The First DCA per curiam affirmed the
circuit court’s denial of this claim. Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
addiess the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state courts adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the state appellate court’s adjudication of this claim is not
entitled to deference, the claim in Ground Seven is meritless. The state circuit court did a
thorough evaluation of the actual comments and the context in which they were made
relative to the evidence presented at trial, and this Court finds no error in that analysis.
35

Case 3.17-CV-00416-MMH-JBT

Document 22
Filed 04/14/2020
3526

Page 36 of 40 PagelD

Upon review of the record, the Court finds none of these comments were improper for the
same reasons the circuit court expressed. However, even if all these comments were
improper, Brown cannot demonstrate prejudice. As described above in the Court’s
analysis of Ground One, the State introduced substantial evidence of Brown’s guilt,
including multiple eye witness accounts (two of which specifically identified Brown as the
shooter), extensive forensic evidence, cellphone evidence putting Brown at the scene,
and Brown’s own admission to being at the scene. Accordingly, there is no reasonable
probability the outcome of the trial would have been different had the prosecutor never
made these comments. See Cargill v, Turpin. 120 F.3d 1366, 1379 (11th Cir. 1997)
(quoting Brooks v. Kemp, 762 F.2d 1383, 1400 (11th Cir. 1985)) (noting that “[ijmproper
prosecutorial arguments will not compel habeas corpus relief, however, unless they
rendered the defendant's sentencing proceeding ‘fundamentally unfair.’... In making this
inquiry, we must determine whether the improper comments ‘were so egregious as to
create a reasonable probability that the outcome was changed because of them.’”). For
the above stated reasons, Brown is not entitled to relief on his claim in Ground Seven.
H. Ground Eight
Lastly, Brown asserts that his counsel was ineffective for failing to file a sufficient
motion for new trial or a motion for arrest of judgment. Petition at 19-20. According to
Brown, his counsel should have based the motion for new trial on the following points:
(1) the prosecution failed to give notice of its reliance on the principal theory; (2) the State
failed to charge felony murder in the Indictment and the reading of the felony murder
instruction was error; (3) the circuit court did not give instructions on defense theories
(theories which he does not specify); (4) the prosecutor’s remarks in closing arguments

36

Case 3:17-cv-00416-MMH-JBT

Document^22_^ Filed 04/14/2020

Page 37 of 40 PagelD

deprived him of a fair trial; (5) the State tried Brown under a defective Indictment; and (6)
count one must be vacated because the State did not charge felony murder in the
Indictment. Id.
Brown raised a similar ground for relief in his Rule 3.850. Resp. Ex. D1 at 47-50.
In denying relief on this claim, the circuit court reasoned:
In Ground Nine, Defendant claims counsel failed to file
a sufficient motion for new trial. According to Defendant,
counsel should have included in the Motion for New Trial the
claims Defendant raised in Grounds One, Two, Six, and
Seven of the instant Motion. As the Court finds Defendant is
not entitled to relief on these Grounds, Defendant is not
entitled to relief on this claim.
Defendant also claims the verdict is contrary to the law
and weight of the evidence, and counsel should have filed a
motion in arrest of judgment. Defendant tracks the language
of the rule in contending he would have prevailed had counsel
filed this motion. Defendant contends, first, that the
Information did not charge him with felony murder, and,
second, that the verdict finding him guilty of premeditated
murder was contrary to the weight of the evidence. The Court"
denies these claims for the same reasons as stated in the
analysis of Ground Two. Defendant is not entitled relief on this
claim.
|cL at 69-70. The First DCA per curiam affirmed the circuit court’s denial of this claim.
Resp. Exs. D2; D3.
To the extent that the First DCA decided the claim on the merits, the Court will
address the claim in accordance with the deferential standard for federal court review of
state court adjudications. After a review of the record and the applicable law, the Court
concludes that the state court’s adjudication of this claim was not contrary to clearly
established federal law, did not involve an unreasonable application of clearly established
federal law, and was not based on an unreasonable determination of the facts in light of

37

Case 3:17-cv-00416-MMH-JBT

Document^ ^ Filed 04/14/2020

Page 38 of 40 PagelD

the evidence presented in the state court proceedings. Thus, Brown is not entitled to relief
on the basis of this claim.
Nevertheless, even if the First DCA’s adjudication of this claim is not entitled to
deference, this claim is meritless. Each of the arguments Brown contends his counsel
should have used in support of a motion for new trial or motion for arrest of judgment is a
claim he has individually raised in his Petition. As explained at length above, none of
those claims has merit. It follows then, that these arguments would have been meritless
had counsel raised them in a motion for new trial or motion in arrest of judgment. Counsel
cannot be deemed deficient for failing to raise arguments that would not have been
successful. See Djaz, 402 F.3d at 1142; Bolender. 16 F.3d at 1573. Accordingly, relief on
Brown’s claim in Ground Eight is due to be denied.
VII. Certificate of Appealability
Pursuant to 28 U.S.C. § 2253(c)(1)
If Brown seeks issuance of a certificate of appealability, the undersigned opines
that a certificate of appealability is not warranted. The Court should issue a certificate of
appealability only if the petitioner makes “a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2). To make this substantial showing, Brown
“must demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong,” Tennard v. Dretke. 542 U.S. 274, 282
(2004) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)), or that “the issues
presented were ‘adequate to deserve encouragement to proceed further,”’ Miller-El v,
Cockrell, 537 U.S. 322, 335-36 (2003) (quoting Barefoot v. Estelle. 463 U.S. 880, 893 n.4
(1983)).

38

Case 3:17-cv-00416-MMH-JBT

Document 22
Filed 04/14/2020
3529

Page 39 of 40 PagelD

Where a district court has rejected a petitioner’s constitutional claims on the merits,
the petitioner must demonstrate that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong. See Slack. 529 U.S. at 484.
However, when the district court has rejected a claim on procedural grounds, the
petitioner must show that “jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Ich Upon
consideration of the record as a whole, the Court will deny a certificate of appealability.
Therefore, it is now
ORDERED AND ADJUDGED:

1.

The Petition (Doc. 1) is DENIED, and this action is DISMISSED WITH

PREJUDICE.
2.

The Clerk of the Court shall enter judgment denying the Petition and

dismissing this case with prejudice.
3.

If Brown appeals the denial of the Petition, the Court denies a certificate of

appealability. Because the Court has determined that a certificate of appealability is not
warranted, the Clerk shall terminate from the pending motions report any motion to
proceed on appeal as a pauper that may be filed in this case. Such termination shall serve
as a denial of the motion.

39

Case 3:17-cv-00416-MMH-JBT

4.

Document 22
Filed 04/14/2020
3530

Page 40 of 40 PagelD

The Clerk of the Court is directed to close this case and terminate any

pending motions.
DONE AND ORDERED at Jacksonville, Florida, this 14th day of April, 2020.

United States District Judge

Jax-8
C:

Taurice Leonard Brown #J48890
Michael Brent McDermott, Esq.

40

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www. cal 1. uscourts.gov

David J. Smith
Clerk of Court

December 11, 2020
Clerk - Middle District of Florida
U.S. District Court
300 N HOGAN ST
JACKSONVILLE, FL 32202
Appeal Number: 20-11785-B
Case Style: Taurice Brown v. Secretary, Florida Department, et al
District Court Docket No: 3:17-cv-00416-MMH-JBT
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court. See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R. 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 days of the entry of such order. No additional time shall be
allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Craig Stephen Gantt, B
Phone#: 404-335-6170
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

USCA11 Case: 20-11785

Date Filed: 12/11/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11785-B

TAURICE LEONARD BROWN,
Petitioner-Appellant,
versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Taurice Brown’s motion for a certificate of appealability is DENIED because he has failed
to make a substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
His motion for leave to proceed in forma pauperis is DENIED AS MOOT.

/s/ Elizabeth L. Branch
UNITED STATES CIRCUIT JUDGE

USCA11 Case: 20-11785

Date Filed: 03/05/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11785-H
CORRECTED COPY
TAURICE LEONARD BROWN,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: MARTIN and BRANCH, Circuit Judges.
BY THE COURT:
Taurice Brown has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of this
Court’s December 11, 2020, order denying his motion for a certificate of appealability and leave
to proceed in forma pauperis in his underlying 28 U.S.C. § 2254 petition. Upon review, Brown’s
motion for reconsideration is DENIED because he has offered no new evidence or arguments of
merit to warrant relief.

USCA11 Case: 20-11785

Date Filed: 03/05/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Cleric of Court

For rules and forms visit
www.cal 1 .uscourts.gov

May 18, 2021
Taurice Leonard Brown
Sumter Cl - Inmate Legal Mail
9544 COUNTY RD 476B
BUSHNELL, FL 33513
Appeal Number: 20-11785-H
Case Style: Taurice Brown v. Secretary, Florida Department, et al
District Court Docket No: 3:17-cv-00416-MMH-JBT
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.call.uscourts.gov.
The enclosed CORRECTED order has been ENTERED.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H
Phone#: (404) 335-6182
MOT-2 Notice of Court Action

